<html>
<title> - TURKEY AT A CROSSROADS: WHAT DO THE GEZI PARK PROTESTS MEAN FOR DEMOCRACY IN THE REGION?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                  TURKEY AT A CROSSROADS: WHAT DO THE
          GEZI PARK PROTESTS MEAN FOR DEMOCRACY IN THE REGION?

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 26, 2013

                               __________

                           Serial No. 113-38

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-694 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Soner Cagaptay, Ph.D., Beyer family fellow, director, Turkish 
  Research Program, The Washington Institute for Near East Policy     5
The Honorable James F. Jeffrey, Philip Solondz distinguished 
  visiting fellow, The Washington Institute for Near East Policy 
  (former American Ambassador to Turkey).........................    12
Kadir Ustun, Ph.D., research director, Foundation for Political, 
  Economic, and Social Research (SETA)...........................    17
Hillel Fradkin, Ph.D., director, Center on Islam, Democracy and 
  the Future of the Muslim World, Hudson Institute...............    27
Mr. Kadri Gursel, contributing writer to Al-Monitor..............    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Soner Cagaptay, Ph.D.: Prepared statement........................     9
The Honorable James F. Jeffrey: Prepared statement...............    14
Kadir Ustun, Ph.D.: Prepared statement...........................    19
Hillel Fradkin, Ph.D.: Prepared statement........................    29
Mr. Kadri Gursel: Prepared statement.............................    38

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    62

 
                  TURKEY AT A CROSSROADS: WHAT DO THE
                      GEZI PARK PROTESTS MEAN FOR
                        DEMOCRACY IN THE REGION?

                              ----------                              


                        WEDNESDAY, JUNE 26, 2013

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call to order this hearing of the 
Foreign Affairs Subcommittee on Europe, Eurasia, and Emerging 
Threats. Today's topic is ``Turkey at the Crossroads.'' What do 
these protests mean for democracy in the region and what does 
it mean for Turkey?
    After I and the ranking member Keating each take 5 minutes 
to make opening statements. Each member present will have 1 
minute for opening remarks, alternating between majority and 
minority members. And, without objection, all members will have 
5 days to submit statements, questions, and extraneous material 
for the record subject to length and limitation rules. Hearing 
no objection, so ordered.
    Turkey is a NATO ally whose strategic and geographic 
location is as important as ever. And I remember during the 
Cold War when Turkey was absolutely essential to the security 
of the United States and, yes, the peace of the world.
    Over the past decade, the orientation of Turkish foreign 
policy under Prime Minister Erdogan has been troubling. Its 
shift in alignment away from our friends in the Middle East and 
toward Syria and Iran has increased tensions in the region. The 
policy, called ``No Troubles With Neighbors,'' has been applied 
to the new engagements with Syria and Iran, but the opposite 
has taken place with Israel.
    Erdogan embraces Hamas leadership, for example, for its 
seizure of power in Gaza and the Iranian leadership for its 
``right to a nuclear program.'' He has supported the infamous 
Gaza flotilla that tried to rum supplies to the Hamas 
terrorists. The Syrian civil war has caused Prime Minister 
Erdogan to move backwards toward the West and face the menace 
of an Iranian Hezbollah intervention.
    As requested, the U.S. and NATO have deployed Patriot air 
defense systems in Turkey. So all of this is having its impact. 
The Turks are Sunni Muslims and have a natural sympathy for the 
Sunni rebels in Syria who are fighting a dictatorship rooted in 
a minority cult associated with Shia Islam. Yet, sympathy has 
not kept Erdogan's policy of supported the rebels and accepting 
refugees from being controversial at home at least.
    If the Obama administration is serious about increasing 
U.S. aid to the rebels, it will have to work with Turkey, as it 
has been doing. But who exactly are the Turks supporting in 
this? What type of people are we talking about? Are the people 
that are being helped by Turkey in the Syrian conflict people 
who--do they hate the United States? And how reliable a partner 
do we have now in Turkey if they are indeed allying themselves 
with these anti-American elements?
    Mass protests over local issues have shaken the Erdogan 
administration. And its resort to a harsh crackdown on 
dissidents helps spread popular anger. And let us note that up 
until now, we have seen and I have personally seen Turkey as an 
example of what I would say moderate Islam in a changing world. 
And some of the crackdown that we have seen and, of course, 
this situation in Syria and some of these other alliances 
leaves some serious questions, which is the reason why we are 
having this hearing today.
    Of course, cracking down on demonstrators leads to worse 
situations, as we have found out in the West. And Prime 
Minister Erdogan's loyalists have, of course, unfortunately--
this is not true of the Prime Minister himself, I am sure--
resorted to wild conspiracy theories, blaming the Jewish lobby 
and the American Enterprise Institute for the demonstrations 
taking place in their own country. The Prime Minister himself 
has referred to the interest rates lobby, which is or at least 
can be easily translated as a slur against Jews. Such tactics 
call into question the character of the ruling party of Turkey. 
And when I say ``call into question,'' it doesn't answer it, 
but it calls into questions. And that is why we are having this 
hearing today, to explore some of those questions and find out, 
maybe calm some of the fears or perhaps maybe reconfirm from 
some of the other fears that we have had.
    There have been reports that anti-semitic textbooks have 
been adopted in public schools in the last 10 years and that 
Hitler's ``Mein Kampf'' has become some kind of a best seller. 
This is not a sign of a healthy democracy. And yesterday it was 
reported that in the capital of Ankara, police raised some 30 
residential addresses to arrest protestors at home, going well 
beyond just confronting demonstrators in the streets in order 
to maintain public order.
    The European Union has postponed talks on Turkey's request 
for membership until at least October because of the concerns. 
And, most strongly, these concerns are being voiced by Germany. 
And they will, of course, when these talks resume, at that 
point, the situation could have calmed down in Turkey. And we 
would be able to find out the true nature of what is happening.
    Our hearing will look at whether Turkey can meet the 
challenges that face it at home and abroad and are what 
challenges are being faced by the Erdogan Government itself and 
what are the potential impacts on these challenges in the way 
they are met on the interests and values of the people of the 
United States.
    To help us answer these questions, we have a distinguished 
panel, including a veteran diplomat, experts on Turkish society 
and history and on Islam, and a journalist who has been 
covering the protests on the ground. What we do not have is 
anyone from the State Department. And we requested that State 
send someone. But their response was that the Department wanted 
to ``keep its public powder dry.'' So maybe they are trying to 
assess the situation as well. And so what the Obama 
administration thinks of events and how it will react will 
remain a mystery, perhaps to them as well as us.
    And let me just close by saying this. This hearing is not 
intended to be a ``beat up Turkey'' hearing. We actually have 
some very serious questions and concerns about what is going 
on, the direction of the country. As I say, in the not-so-
distant past, I looked at Turkey as perhaps a great example of 
modern Islamic Government and how it could do good things and 
can be relied on to promote progress and peace and stability.
    Now, after the events and what has been going on, what are 
some of the things that have been disclosed, where there are 
serious questions. And today I hope to have those questions 
answered.
    And now I would turn to our ranking member for whatever 
opening statement you would like to make for as long as you 
would like to make it.
    Mr. Keating. Thank you, Mr. Chairman, for holding these 
hearings today.
    Turkey has been a U.S. ally in an incredibly rough 
neighborhood for many decades now. For this reason, the 
political stability and economic strength of Turkey is a matter 
of importance to many American policymakers, analysts, and 
business people. The membership of Turkey in the Group of 20 
along with its growing trade partnerships throughout the region 
are positive developments, not only for Turkey but also for 
U.S. national interests.
    Further, the recent news of enhanced prospects for 
normalization of relationships between Israel and Turkey as 
well as the long overdue peace accord with the Kurds is 
welcomed. However, it is domestic politics that have now taken 
center stage in Turkey. The electoral dominance of Prime 
Minister Erdogan's AK Party for more than a decade has led to 
the emergence of a seemingly one-party state. Other parties 
have little-to-no ability to influence decision-making, and 
that has left many Turks feeling threatened, frustrated, and 
powerless. These feelings are exacerbated by the Prime 
Minister's self-acknowledged majoritarian philosophy, namely 
that a government elected with a parliamentary majority has no 
post-election obligation to consult the governed.
    However what most caught the eye of this subcommittee and 
the world has been the Prime Minister's seeming sanctioning of 
brute force by the police against peaceful protesters. In the 
last few weeks, five people have died. Some 4,900-plus 
protesters have been detained and 4,000 people were injured.
    There are countless reports of arrests of doctors treating 
injured bystanders, young adults using social media to express 
their frustrations, and lawyers attempting to defend the 
fragile rule of law. Further, the rhetoric of the Turkish 
Government has inflamed the situation, as the Prime Minister 
publicly praises the police and repeatedly distinguishes 
between those that support him and those who do not.
    For this reason, I am pleased that President Obama, Vice 
President Biden, and Secretary Kerry have made responsible 
statements calling the Turkish Government to account, and I 
commend them for that. I will speak for myself when I say that 
following years of mostly astute governance in Turkey, the 
Turkish Government's response to the recent protests came not 
only as a disappointment but as a surprise, frankly.
    As we sit here today, the protests continue on, with the 
Turkish Interior Ministry reporting at least 2.5 million 
protesters over the past 3-plus weeks. In fact, these numbers 
and the sheer diversity of the protesters represent hope for 
the emergence of a vibrant, politically engaged generation of 
Turks that embrace pluralism. If so, the energy of these 
demonstrations could well become the basis for a re-
invigorated, dynamic democracy. That is not a development Mr. 
Erdogan should fear but, rather, he should welcome.
    I look forward to hearing our witnesses' perspectives on 
this developing situation and thank especially those who have 
traveled from Turkey to share their views here today.
    Thank you, Mr. Chairman. And I yield back my time.
    Mr. Rohrabacher. Thank you very much. And Mr. Duncan has an 
opening statement as well.
    Mr. Duncan. Thank you, Mr. Chairman. And, as a friend of 
Turkey, I appreciate you holding these hearings on what the 
protests mean for democracy in the region.
    I remember just 2 short years ago, you and I were in Turkey 
observing the parliamentary elections in June 2011 if my memory 
serves me correctly. So watching the political dynamics going 
on in Turkey right now is something that is interesting to me. 
And I enjoyed a conversation I had this morning about these 
very issues. And I look forward to a follow-up on that.
    And, with that, I will yield back.
    Mr. Rohrabacher. Thank you very much for that opening 
statement. And let us just note that 2 years ago, there was 
that election. We were there. And everyone was deeply impressed 
that Turkey was having an honest and open and free election and 
how people were engaged and involved. And that was a very 
impressive sight for those of us who knew what turmoil was 
going on in the rest of the area. And now, of course, today we 
have a different vision of what is happening in Turkey. So that 
is why we need to discuss it.
    We have five very knowledgeable witnesses with us today 
that can help us in this discussion. James Jeffrey served as 
U.S. Ambassador to Turkey from 2008 to 2010. Prior to that 
appointment, he had served as deputy chief of mission from 2004 
to 2005 in Iraq. And he returned and served as Secretary of 
State Condoleezza Rice's special adviser in Iraq. And so what 
we have with Mr. Jeffrey is a very--you know, how do you say?--
very experienced man. And, also, I seem to remember that you 
were in Iraq when I got kicked out of Iraq that last time. I 
will let that sit.
    We also have Dr. Hillel Fradkin.
    Mr. Duncan. Mr. Chairman, if I may add, I was with you on 
that trip. And we were kicked out of Iraq, too, Ambassador.
    Mr. Keating. Mr. Chairman, may I say I was not with you? 
[Laughter.]
    Mr. Rohrabacher. All right. Dr. Hillel Fradkin, a senior 
fellow at the Hudson Institute and directs its Center on Islam, 
Democracy and the Future of the Muslim World. He cofounded and 
co-edits the Journal on current trends in Islamic Etiology, the 
leading journal devoted to the study of contemporary Islam. And 
we appreciate him being with us today.
    We have with us Kadir Ustun. He is the research director of 
the SETA Foundation here in Washington and assistant editor of 
Insight Turkey, the foundation's academic journal. Mr. Ustun 
holds a Ph.D. in Middle Eastern, South Asian, and African 
Studies from Columbia University, where he was also taught at 
that university.
    Kadri Gursel is a contributing writer for Al-Monitor's 
Turkey Pulse and has written a column for the Turkish Daily 
Milliyet. And he has done that since 2007. He focuses primarily 
on Turkish foreign policy, the Kurdish question, and Turkey's 
evolving political Islam. He has joined the Milliyet Publishing 
Group in 1997 after working as a correspondent.
    And since 1995, he was kidnapped by the Kurdish PKK 
insurgents. And I am sure that that is a tale he has recounted 
in a book. We should all maybe take a look at that. It sounds 
like an exciting adventure in your life, perhaps one that you 
don't think back on quite fondly. And the name of his book is, 
``Those of the Mountains.''
    We also have with us Soner--and I am going to see if I can 
pronounce this. Could you help me with that?
    Mr. Cagaptay. Cagaptay.
    Mr. Rohrabacher. Cagaptay. And he is the Beyer family 
fellow and director of Turkish Research Program at the 
Washington Institute for Near East Policy. He earned his Ph.D. 
in history from Yale University and has taught courses on the 
Middle East at Yale, Princeton, Georgetown, and Smith College. 
And he has also served as chair of the Turkey Advanced Area 
Studies Program for the State Department's Foreign Service 
Institute.
    Thank you all for being with us. Did I miss somebody? Okay. 
And you will be our first witness. Thank you, Bill, for getting 
me straight on that. So we will start there. And then each of 
you would be given a 5-minutes to present some testimony. We 
would appreciate if you would keep it around 5 minutes. And 
then we will follow up by questions. And I would appreciate, as 
I say, appreciate keeping it to about 5 minutes.
    If you have more extensive remarks in that, they will be 
placed into the record at this point in the hearing. Thank you 
very much. And you may proceed.

   STATEMENT OF SONER CAGAPTAY, PH.D., BEYER FAMILY FELLOW, 
 DIRECTOR, TURKISH RESEARCH PROGRAM, THE WASHINGTON INSTITUTE 
                      FOR NEAR EAST POLICY

    Mr. Cagaptay. Thank you, Mr. Chairman and members of the 
committee, for giving me the opportunity to testify today on 
the recent protests in Turkey, what they mean for democracy in 
Turkey, the country's neighborhood, and for U.S. policy. The 
following is a summary of my prepared remarks, which I will 
submit for the written record.
    Turkey, as you said, is an important country. It is a NATO 
member state. It is a key ally for the United States. Situated 
between Central Asia, the Caucasus, the Mediterranean, Europe, 
and the Middle East, it is vital to U.S. interests across those 
regions. Take for instance, Iran, Iraq, and Syria. Turkey is 
the only country that borders these three nations and is vital 
for U.S. policy toward these countries. That is why I think it 
is important for us to look at the recent domestic developments 
in Turkey because, according to some analysts, the recent 
protests that have rocked Istanbul and other cities for almost 
a month represent what is probably the biggest challenge that 
the governing Justice and Development Party in Ankara has faced 
since it came to government in 2002. So what do these protests 
mean for Turkey's stability, for democracy in Turkey, for 
Turkey's region and the Middle East, and obviously for U.S. 
policy?
    I will start with Turkey's dramatic transformation under 
the AKP. Since this party came to power in 2002, Turkey has 
become, thanks to AKP's sound economic policies, a wealthy 
country with a majority middle class society. This is a first 
in Turkish history.
    As a result of this transformation, Turkey has joined the 
prestigious members of G-20 club of nations. And it has also 
become a powerhouse in the Middle East. As a result of this 
dramatic transformation, the country, as I said earlier, has 
become a majority middle class society. And, ironically I 
think, the protests show that the AKP is perhaps a victim of 
its own success.
    The middle class that the party's policies have created is 
now committed to individual freedoms and is taking issue with 
the governing party's style of governance and its attempts at 
political domination.
    This suggests that the often-cited modernization theory 
that as countries develop and become more prosperous, they 
become better democracies, is being validated in Turkey. We are 
seeing the rise of a middle class that demands respect for 
individual freedoms, freedoms of expression, assembly, media, 
and association, as well as minority and individual rights. I 
think, in a nutshell, this is what encapsulates the 
developments in Turkey.
    Allow me now to look at, Mr. Chairman, what I think the 
developments do not constitute. I don't think the developments 
constitute yet another episode of the Arab Spring. Turkey did 
not experience the proverbial winter, political winter. The 
country was and is a democracy. So the Arab Spring analogy does 
not quite apply.
    Nor do the protests suggest a significant weakening of the 
AKP. By most measures, about half of the country's population 
still supports the governing party. The protests are also not 
about a manifestation of the secularist Islamist divide that 
has for so long dominated Turkish politics. Although most of 
the protestors are secular, their demands are not about 
secularism, per se. They are about the quality of democracy and 
demand for liberal values.
    Mr. Chairman, I believe that these demonstrations present a 
new dynamic in Turkish politics. The members of the protest 
movement, roughly representing one half of the Turkish 
electorate, have found strength in numbers. They have also 
found out that they can continue and sustain their 
demonstrations, thanks to the organizing force of social media 
technologies. These are indeed new. This is indeed a new 
dynamic in Turkish politics in the sense that the protests 
represent Turkey's first massive, grassroots political movement 
that is likely to sustain itself.
    This new form of political force in Turkish politics could 
obviously complicate Turkish Prime Minister Erdogan's political 
agenda. Among those issues I would like to cite is Turkey's 
Syria policy, which you have looked at, Mr. Chairman. Although 
most Turks do not support Bashar al-Assad, many are also 
unnerved by Ankara's policy, which they think has exposed 
Turkey to increased risks and costs.
    Take, for instance, a recent attack, a error attack, 
unfortunate attack, on the Turkish town of Reyhanli that killed 
51 people that took place in May. This is the worst attack 
Turkey has suffered in modern history. Accordingly, I think 
this persistent opposition is likely to move Ankara to a 
position of leading from behind in Syria.
    Turkey's relationship with the U.S., I don't think, will 
suffer much from the unrest. Ankara values its relationship 
with Washington. And I think that the rapport Prime Minister 
Erdogan shares with President Obama is going to help resolve 
any wrinkles that will arise from Washington's criticism of 
Ankara's conduct. Still the issue remains. Turkey is divided 
deeply between the supporters and opponents of the governing 
party. And the recent protests may have deepened this chasm 
further.
    Secular, middle class, liberal Turks are demanding respect 
for freedom of the press, expression, association, and assembly 
as well as a voice on environmental policy and urban space. I 
think the Turkish leadership should take comfort in the fact 
that the demonstrations are not directly against AKP. Rather, 
they are for individual rights and better democracy.
    The leadership should also avoid giving credit to 
widespread conspiracy theories that the demonstrations are 
driven by ``outside forces.'' Millions of people have 
demonstrated in over 78 Turkish cities over the course of the 
month. This is clearly an indigenous Turkish movement, and the 
country's government would be better served to listen to it, 
embracing democracy. In this regard, I think Brazil is a case 
in point.
    Mr. Chairman, I think at this point, at this juncture, the 
way forward for Turkey overlaps with U.S. policy and U.S. 
interests in the Middle East. Turkey has become an economic 
power in the region. It has become a soft power nation. And it 
wants to be a leader in the Middle East. And Ankara wants 
Washington to treat it as such. I would say that as far as U.S. 
policymakers are concerned, Turkey can become a leader in the 
Middle East only if it shines as an example of liberal 
democracy.
    To this end, the Turkish Government and people would be 
well-served to embrace broad individual liberties, including 
freedoms of assembly, association, media, and expression. At 
the moment, Turkey is attempting to draft its first civilian-
made constitution. And this presents Ankara and all the Turks 
with a unique opportunity to do so, recognize those liberties, 
and doing so without restrictions.
    What is good for Turkey is also good for the Middle East 
and the United States, Mr. Chairman. Turkey can overcome its 
political tensions by adopting a constitution that respects 
individual freedoms and recognizes its diversity. This would 
also mark an important milestone for the country's desire to 
become a source of inspiration for other Muslim-majority 
countries in the Middle East. Only if Turkey seizes the 
opportunity, it can become a partner Washington can be proud to 
have in the region.
    In conclusion, Mr. Chairman, the take-away of today's 
conversation and our message to our ally, Turkey, the country's 
citizens, and its neighbors should be the following. Democracy 
is not just about the right to be equal. It is also about 
protecting the right to be different.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cagaptay follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Well, thank you very much for that very 
thoughtful testimony.
    And I would like to now turn to Ambassador Jeffrey for some 
thoughts from him. The last witness was fairly optimistic for 
the long run. And we are very interested in your views on this.

  STATEMENT OF THE HONORABLE JAMES F. JEFFREY, PHILIP SOLONDZ 
  DISTINGUISHED VISITING FELLOW, THE WASHINGTON INSTITUTE FOR 
    NEAR EAST POLICY (FORMER AMERICAN AMBASSADOR TO TURKEY)

    Ambassador Jeffrey. Thank you very much, Mr. Chairman, Mr. 
Keating. It is a pleasure to be here today. I will submit my 
longer statement for the record and just summarize a certain 
number of points.
    First of all, my colleague at the Washington Institute, 
Soner Cagaptay, has laid out, I think, a very accurate and 
optimistic but, again, realistic view of how we should go 
forward and how Turkey will probably go forward. I will just 
touch on a few domestic issues that I would like to highlight 
and then get to what the U.S. should do and some of the 
implications for the region.
    First of all, I do think that this does demonstrate that 
there is a large fissure in Turkish society between two 
relatively large groups. And this is being fought out on 
various levels. But that is okay because that is how democratic 
countries evolve. And we have seen this in East Asia. We have 
seen this in central and Southern America. Many of you have 
gone on visits to these countries as they are moving forward. 
And they do this step by step. This is what is happening in 
Turkey.
    The concern that we all have with the reaction of the 
government is, first of all, as came out in a statement from 
the White House just yesterday after President Obama called 
Prime Minister Erdogan, is the concern about the violence of 
the reaction of the authorities against the demonstrators and 
the concern about freedom of expression, freedom of 
demonstration, and freedom of media. All of these have been 
called into question to one or another degree by some of the 
statements and actions by the government. And that is of 
concern. But, in particular, the polarization of those people 
who are opposed to the government is troubling.
    From our standpoint, looking from the outside, first of 
all, Mr. Chairman, this is not going to lead to the overthrow 
or the fall of the Erdogan Government, certainly not before the 
elections of 2015. And I think the government is still 
maintaining probably a majority. But what it does portend is 
trouble for a country that is integrated ever more into the 
advanced world with its trade, with its diplomatic and military 
relationships and NATO with the European Union and so forth, 
and a country that needs good relations with the outside, be it 
tourism, be it again its trade.
    Some of that has already suffered because of the 
demonstrations. There are other aspects of that, including the 
recent decisions by the Federal Reserve, but the stock market 
did fall dramatically. The lira has also fallen against the 
dollar. And there is some indication that tourism in foreign 
direct investment may be challenged.
    But, more importantly, the majority can rule in Turkey, 
like in any other country. It can issue orders to the police. 
It can pass laws. But it cannot control the minority. And in 
the end, there has to be some kind of relationship between 
those people who are not part of the governing coalition and 
the governing coalition to have stability in any country. We 
dealt with this in our own constitutional process in the 
Eighteenth Century between those in favor of a majority rule 
and those in favor of minority rights. Turkey is going to have 
to go through this.
    It is a democracy. For the moment, I think we can trust in 
the Turkish people to work their way through this. But 
meanwhile what should we do? And what is the attitude of the 
U.S. Government?
    Obviously, coming from a diplomatic background, I like to 
do diplomatic talks private, rather than in public, but there 
is a role for public discourse as well, both from the 
government and from institutions like the Congress, speaking 
out about our values when we see them being challenged. But, 
nonetheless, where the United States can help the most because 
we do have a good relationship with the Erdogan Government is 
in private conversations. And that is apparently exactly what 
President Obama did yesterday in his conversation: Coach the 
Turks on our view of why continued clashes in Turkey are not 
good for Turkey's future, are not good for Turkey's economy, 
and are not good for Turkey's role in the region.
    And that is the thing I want to leave with, Mr. Chairman. 
This region is in a worse condition than I have seen it in many 
decades for many reasons, including some decisions we perhaps 
made. But at the end of the day, if we are going to find a way 
forward with Syria, with Iraq, and with Iran, as my colleague 
and as you people have pointed out, we are going to have to use 
our good relations with Turkey. We are going to have to 
cooperate and coordinate fully with Turkey. And that requires 
some kind of relationship with this government. That means that 
we have to be cautious in what we say publicly. We can be more 
open privately. And we will be more effective.
    I think that is the way the administration is going, but I 
hope it continues on this, not ignoring the problems but 
putting them in the context of an extremely dangerous and big 
agenda that we have in the region right now, sir.
    Thank you very much.
    [The prepared statement of Ambassador Jeffrey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    And I think we would go to Mr. Ustun now.

STATEMENT OF KADIR USTUN, PH.D., RESEARCH DIRECTOR, FOUNDATION 
      FOR POLITICAL, ECONOMIC, AND SOCIAL RESEARCH (SETA)

    Mr. Ustun. Thank you, Mr. Chairman and members of the 
committee, for inviting me to speak at this hearing. I have 
already submitted my testimony. And I will only highlight some 
of the points discussed there in detail.
    Today, what we see in Turkey is the growing pains of 
democracy. The crux of the issue is somewhat paradoxical. We 
have the most successful and reformist political party in power 
for more than a decade. However, there are certain segments of 
the society who are frustrated with some policies but cannot 
express their discontent through the regular channels of formal 
politics because of the absence of a viable opposition.
    The basic dynamics of the protests are fundamentally 
different from the Arab revolutions where there was no 
meaningful representation of the popular will. The challenge 
will be for Turkey to accommodate the legitimate demands and 
aspirations of many Turkish youths. If it succeeds, Turkish 
democracy will be even stronger in the years ahead and serve as 
a democratic inspiration for the broader region.
    The protests can be likened to Occupy Wall Street movement, 
rather than the Arab revolutions. The disproportionate use of 
force by the police against a small group of protestors 
occupying the Gezi Park quickly snowballed into much larger 
protests. Protests are much more similar to those in the West 
and in the U.S.
    Three major groups have participated in these protests. The 
biggest one has been the middle and upper class urbanites angry 
about the Gezi Park redevelopment project and certain policies. 
These policies resulted in the divisive controversies similar 
to those over stem cell research, abortion, and gun control in 
the U.S. and Europe.
    The second most significant group is the young CHP 
supporters and the ultranationalist wing of the party. Young 
people are increasingly disenchanted by the political system as 
they see no hope of challenging the dominant ruling party in 
the absence of a strong leadership. The CHP is split on how to 
approach the government's initiative to resolve the Kurdish 
question. Discontent created by the lack of representation and 
the Kurdish settlement process as well as the Syria policy is a 
major motivator for this group of demonstrators.
    The last group is the marginal leftist groups, some of 
which are illegal organizations implicated in various terrorist 
attacks, including the bombing attack on the U.S. Embassy in 
Ankara in February. The government tried to make a distinction 
among these three groups. We can discuss how successful that 
was. And it promised to listen to the legitimate demands of the 
protestors about the Gezi Park. But the Prime Minister's 
harshest words were directed against the third group, which 
engaged in violence and vandalism.
    The Prime Minister met the protestors in person, at a long, 
4-hour, meeting and announced that the government would respect 
the current court injunction blocking the project. If the court 
decides to remove the injunction, the government will sold a 
referendum. However, the protestors announced that they would 
continue to occupy the park and hold demonstrations, resulting 
in further police action.
    As its efforts to reach out and provide an apology to 
peaceful protestors proved insufficient, the government viewed 
the continuation of protests as ill-intentioned. The government 
argues that the marginal groups and CHP members are 
orchestrating a campaign to undermine the democratically 
elected government by taking to the streets, hence the 
government's repeated references to the ballot box as the 
ultimate jury. It doesn't refer to a majoritarian understanding 
of democracy but, rather, a past where extrapolitical powers 
could wield influence over the elected governments.
    The protests have resulted in a lively debate throughout 
the political spectrum about basic rights and freedoms and what 
an advanced democracy should look like. Turkey's takeoff over 
the past decade created a new generation of young people, who 
are much more educated, economically comfortable, and 
increasingly globalized. Their aspirations, frustrations, and 
discontent cannot fully be expressed in the political scene 
through the existing opposition parties. The AK Party will need 
to engage this segment of the protestors.
    The same goes for the CHP. The struggle between the hard-
line ultranationalists and the moderates is pulling the party 
apart. The CHP will have to transform itself into a center-left 
party or it will find itself fighting the wars of a bygone era. 
The U.S.-Turkey relationship is important, not only for 
bilateral relations, but also for stability and peace in the 
broader Middle East. Turkey has a critical relevance for the 
U.S. foreign policy issues, including withdrawal from 
Afghanistan, stability in Iraq, resolving the Iranian nuclear 
issue, and ending the Syrian conflict, as well as achieving 
peace between Israel and Palestine.
    Turkey has proven time and again it is a dynamic democracy 
with a vibrant civil society, despite its flaws and 
imperfections. The debate today is not on whether to have 
democracy but on how to create a better one that embraces all 
segments of the society. That is testament to the country's 
commitment to democratic ideals and the rule of law.
    Thank you.
    [The prepared statement of Mr. Ustun follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Well, thank you for that very thoughtful 
testimony.
    And, Mr. Fradkin, please?

STATEMENT OF HILLEL FRADKIN, PH.D., DIRECTOR, CENTER ON ISLAM, 
 DEMOCRACY AND THE FUTURE OF THE MUSLIM WORLD, HUDSON INSTITUTE

    Mr. Fradkin. Chairman Rohrabacher, Ranking Member Keating, 
honorable members, let me begin by thanking you for the 
opportunity to testify today. The topic, ``Turkey at a 
Crossroads: What Do the Gezi Park Protests Mean for Democracy 
in the Region?'' is a most important one. And I am, therefore, 
very honored to have been invited to offer a response to this 
and the related questions cited in the invitation.
    The latter largely focus on the meaning of these events for 
the prospects of Turkish democracy itself. And all of these 
questions are indeed related because it has been hoped that the 
fact of Turkish democracy and its successful operation would 
serve as a model for democratic development in other parts of 
the Middle East region. This has been especially true since the 
advent of the so-called Arab Spring and the overthrow of 
authoritarian regimes. It has also been especially true since 
the rise to rule of Turkish Prime Minister Tayyip Erdogan and 
his AKP party for the latter, as I think both the chairman and 
the ranking member indicated, appear to offer a model for the 
successful navigation of the tensions between democracy and 
Islam.
    I have submitted more extensive and formal remarks, but 
what follows is a summary.
    So what does Gezi Park mean? Alas, from the perspective of 
both Turkish democracy and broader regional hopes, the events 
surrounding Gezi Park are discouraging. This is because Gezi 
Park has brought to a head a crisis in the course of Turkish 
democracy. This crisis has been brewing for some time and has 
entailed a variety of particular issues and disputes. But the 
crisis is broader and deeper because it is about democracy as 
such, what it is and what it should be.
    Gezi Park reveals that Turkey has not resolved this dispute 
for itself, at least not yet. And, for that reason, it is 
hardly in a position to serve as a model for others. Still less 
is this is the case since the position of Prime Minister 
Erdogan, his party, and his government concerning the meaning 
of democracy, at least as enunciated recently, is a defective 
one, both from the point of view of Turkey and other states in 
the region.
    This has become clear in the aftermath of Gezi Park through 
both the words and actions of Prime Minister Erdogan, his 
colleagues, and supporters. In brief, he has insisted on what 
one may call--and I think the chairman already did call--a 
majoritarian understanding of democracy.
    Erdogan claims no more than a majority of 51 percent, a 
figure derived from the last elections. Still, he claims that 
this gives him the right to do as he pleases. For him, this is 
true for the additional reason that he claims to have made a 
great success of Turkey over the past decade and, therefore, 
knows what is best for Turkey now and in the future. All the 
more should he be free to do as he thinks best, but what about 
the large number of the Turkish public who apparently did not 
vote for him nor support him? Since Gezi Park, Erdogan has 
given a very large number of speeches, which provide his 
understanding of them. They are, according to him, terrorists 
and traitors in league with foreign enemies. ``Their malevolent 
intent is to hold Turkey down and back''--these are direct 
quotes--from the still greater Turkish future Erdogan intends 
to build. He has promised in meaning tones to uncover these 
alleged plots and punish all of those responsible, employing 
the full powers of the state. If that violates the strict rule 
of law, so be it.
    And I want to stress the rhetoric of Prime Minister Erdogan 
has been really ferocious. Gezi Park was from the beginning an 
instance of this view. Much has been made of the force and 
violence used to suppress the original small band of tree-
loving demonstrators. And this is important. It was what 
prompted many more people to come to Taksim Square, which led 
to still more force and violence.
    But it is also important to note that the original 
demonstrators were attempting to block what was, in fact, an 
illegal act. The question of Gezi Park was actually in 
litigation. And a Turkish court had issued a stay on all work 
there. Still, Erdogan went ahead.
    In part, the Gezi Park protests were in objection to this 
kind of high-handed and lawless behavior, which has become all 
too frequent in recent years. But Erdogan is, in part, right. 
The protestors also object to his vision of the Turkish future. 
And they think they should at least have a say in the matter. 
This is hardly surprising for it appears that what Erdogan has 
in mind is a kind of refounding of the Turkish republic.
    He is very attached to the year 2023, when it will 
celebrate its 100th anniversary, a refounding which entails, 
somehow or other, a revival of its pre-republican past, 
morally, religiously and politically. This pre-republican 
past--it is obviously Ottoman past--was not notably democrat 
but, rather, was based on the will of the rulers. Thus, to many 
I think people in Turkey, Erdogan's behavior and vision appear 
to be all of peace.
    Let me turn to the questions external to domestic, Turkey's 
domestic, politics, the regional questions, and end with that. 
Concerning the region, it is easy to see that the implications 
are not promising. The region and especially the Arab countries 
have an altogether too rich and deep experience of the politics 
of will, of an authoritarian will.
    What it needs, what it has needed, what it still needs is 
some model of consensual democratic politics with some due 
accommodation of religious sensibilities. For a while, it 
seemed and was hoped that Turkey could provide that, but that 
is hardly the case today.
    Thank you, Mr. Chairman. Thank you, members of the 
committee.
    [The prepared statement of Mr. Fradkin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you for that testimony.
    And, Mr. Gursel?

   STATEMENT OF MR. KADRI GURSEL, CONTRIBUTING WRITER TO AL-
                            MONITOR

    Mr. Gursel. Respected members of the U.S. House of 
Representatives Foreign Affairs Subcommittee on Europe, 
Eurasia, and Emerging Threats, I thank you for the opportunity 
to share my observations and thoughts on the meaning of the 
protest movement that started as a reaction to a police action 
on May 31.
    So my observations go a bit beyond those of a veteran 
journalist. They are also personal as I live very close to the 
epicenter of the protests at Taksim Square. I myself suffered 
from the gas that police used so generously on the 
demonstrators.
    The first question that must be answered here is what 
actually happened in Istanbul on May 31 and June and how to 
explain it. The shortest way to define it would be that it was 
a social eruption or social explosion.
    The excessively harsh police intervention against a few 
hundred protesters in the early hours of May 31 was the final 
move that led to this explosion.
    How did the events swell and reach the point of an 
explosion? And here is a short list of factors that contributed 
to the eruption. First of all, the inability of the mainstream 
media, which was under stiff government pressure to carry out 
its basic mission of informing the public and keeping tabs on 
the government; on the other hand, working on the line, the 
growing importance of the internet media and especially that of 
al-monitor.com, where I am a contributing writer, to contest 
this unabashed censorship by providing Turkish writers of 
different perspectives a forum to share their views in both 
Turkish and English.
    The independence of the judiciary has been discarded as a 
result of the accumulation of power never before seen during 
periods of civilian rule in Turkey, which is the second factor. 
Most of the public feels the judiciary has been politicized and 
that ways to seek justice has been blocked.
    The third one, arbitrary and prolonged political detentions 
further decreased confidence in the justice system.
    The fourth is the role of religion in basic education has 
greatly increased, particularly in the last year, alienating 
many of Turkey's Alawites and secular citizens.
    The fifth is over the last few months, authorities became 
intolerant of even minor protests and resorted to police 
violence to disperse them systematically.
    The sixth is Turkish Prime Minister Recep Tayyip Erdogan's 
advice to women at every opportunity, it seems, on how many 
children they should have and how they should give birth has 
fostered the perception of interference in personal lives.
    Finally, the government imposed alcohol bans in May under 
the label of ``regulating alcohol,'' causing a sizable part of 
society to feel that the government was intervening in their 
lifestyles and freedoms.
    To keep this short list, which is a very short list, we 
must also add the Prime Minister's habit of using offensive 
language to denigrate the cultures and lifestyles of those who 
are not counted as his constituents.
    It was Prime Minister Erdogan's policies and the pressure 
he brought to bear on the public with his narratives that led 
to this social explosion.
    How then to analyze the sociopolitical chemistry of this 
explosion? The uprising was a spontaneous popular movement 
without an organization and leadership. The lead actor in this 
movement is the well-educated, urbanized young generation 
labeled by the Turkish media as ``the '90s generation.'' Most 
of these young people place themselves outside of established 
politics. According to polls, they cite restrictions on their 
freedoms, Erdogan's authoritarianism, and police brutality as 
the main reasons behind their taking to streets. What they 
demand most is their freedoms and ending the violations of 
their rights.
    To sum up, this is a new secular urban middle class' 
rebellion against Erdogan's rule. In sum, the social movement 
that began at Gezi Park discussed finding ways to defend their 
freedoms politically, now actually. This discussion is 
continuing in various formats today.
    Since June 17, activists have been engaged in standstill 
protests in acts of passive disobedience. Every evening they 
organize synchronized forums in various Istanbul parks where 
free debate takes place.
    The enrichment of the culture of democracy and spreading it 
to the masses where it will take root is a priceless and never-
before-seen civil society movement. For civil society to take 
its due place as a key actor in the struggle for democracy is a 
sign of maturity and a healthy society.
    Naturally, as I tried to explain at the beginning, this 
civil-social movement is a reaction of anger and resentment 
against Erdogan Government's Islamic conservatism, its policies 
that are sidestepping democratic freedoms in Turkey.
    Prime Minister Erdogan's policies of societal polarization 
did not cost anything until May 31. But from now on, Mr. 
Erdogan will pay something for his policies of polarization. 
That price will be instability.
    The social explosion in Turkey and government pressures 
that followed simply washed out the paradigm of the Turkey 
model based on the rule of the Justice and Development Party. 
This was advocated as a model for the Middle East and was 
accompanied by the term ``Muslim democracy,'' even though it 
was not applicable.
    AKP rule now has two roads to choose from. It has come to a 
junction.
    It can finally take the steps needed for Turkey to become a 
real libertarian, pluralist, participatory and secular 
democracy and, as such, redefine the Turkey model, but 
correctly this time, or it can continue to drag Turkey toward 
an Islamic, authoritarian and oppressive regime. If AKP 
officials opt for the latter, they can't advance their cause 
without suppressing civil society. A more oppressive and more 
authoritarian regime cannot maintain stability in Turkey.
    To finalize, it is impossible to give an unequivocal answer 
to a question frequently asked nowadays, whether a military 
coup is among the risks to be face should Turkey destabilize 
even further. With the purges of 2010-2012, the ability of the 
military to stage coups has been made extraordinarily 
difficult. The military has been totally excluded from 
politics.
    Thank you for your attention. And thank you for this 
opportunity, Mr. Chairman.
    [The prepared statement of Mr. Gursel follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you very much for your thoughtful 
testimony and for the testimony of all of our witnesses today. 
I am going to take a little poll. Maybe you could just tell me. 
Before this upheaval happened and this violence started in the 
park, before the police weighed in with their billy clubs and 
ignited something, did you believe that there was a tension and 
a seething underneath the surface in Turkey that was of the 
magnitude that we have seen manifest itself since that ignition 
point? Did you think that this could happen? Just give me a yes 
or no. Mr. Ambassador?
    Ambassador Jeffrey. Yes, sir.
    Mr. Fradkin. Yes.
    Mr. Cagaptay. Not the timing.
    Mr. Rohrabacher. What is that now?
    Mr. Cagaptay. Yes, but not the timing.
    Mr. Rohrabacher. Okay. Go ahead.
    Mr. Gursel. Yes for the resentment, no for the timing.
    Mr. Ustun. Yes with some objections.
    Mr. Rohrabacher. Oh, my gosh. All right. Thank you for 
that. I will have to tell you I didn't. So you guys are a lot 
smarter over there than those of us are up here. That is why we 
are having you testify.
    I really saw--perhaps it was an illusion, and perhaps it 
was not. It seemed to me that we had a demonstration of Islamic 
democratic government that was reasonable and could again serve 
as a model and was reaching out to its own people in the 
democratic process.
    I always looked at, for example, the fact that women 
before--and correct me if I am wrong--were not permitted to 
wear head scarves when the old military, pro military, regime 
was in. And freedom is when a woman has the right to wear a 
head scarf but also the right not to wear a head scarf. And if 
the new government or if the Erdogan Government would then move 
to the point that it was mandating that, well, then it would 
begin, as you were mentioning, traipsing on the fundamental 
freedoms of the people.
    Was this alcohol restriction--I have heard one example of 
that. Were there other restrictions that I have missed that 
were being again over the line where you would say that freedom 
aligned that the Erdogan administration was having other than 
restricting alcohol is because of someone's religious beliefs, 
that Islam does not believe in that? So were there other 
restrictions that we are causing the people to be upset, 
whoever has an answer for that? Mr. Ambassador, any----
    Ambassador Jeffrey. Simply to say in our own country, sir, 
as you know, we prohibited alcohol for many years. As an 
imbiber of alcohol, I am personally not in favor of that, but I 
just want to show how complicated democracy is as it rubs up 
against what people see as their personal freedoms. And, thus, 
I would segregate this from religion in general or the specific 
religion of Islam and simply state that this struggle between 
authoritarian thought processes, even with a majority 
government and minority rights, we have seen all over the world 
in many different kinds of countries as countries, including 
many of our allies, Korea, Taiwan, Thailand, evolved. And that 
is what we are seeing.
    Mr. Rohrabacher. Well, did we see, in this regime, for the 
last 10 years, was there a violation of people's freedom of 
speech, for example? Mr. Ustun, why don't we go with----
    Mr. Ustun. Yes. There are no laws that were passed about 
restricting freedom of speech in Turkey. And there is a very 
harsh criticism of the government in newspapers and TVs and 
everywhere. There have been concerns about media issues, but 
there are structural problems that date back to the '90s and 
before where the relationship between sort of big media 
conglomerates and businesses, those kinds of relationships make 
the media, sort of journalists' lives a little more difficult 
because they have to kind of sort of go along with what the 
bosses want. In the past, they would call on the military to 
intervene. But today they are doing other things.
    Mr. Rohrabacher. Does anyone else have an observation about 
freedom of speech under this administration? Yes, sir? And then 
we will go with you.
    Mr. Ustun. Let me defer to the Turkish journalist.
    Mr. Gursel. Okay. Well, let me give you an example on that. 
Since 2008, I don't remember having read any news story 
covering government corruption in the mainstream media, since 
2008.
    Mr. Rohrabacher. All right. No, because they have 
eliminated all government corruption there?
    Mr. Gursel. So does it mean that in Turkey, there is no 
corruption? I don't believe. I don't think so. And then the 
main instinct replaced the instinct of news in the desk, news 
desk, is the censorship. And it was proven on the night of May 
31, when there was the events in Istanbul's streets. A few 
hundred meters away, TV channels were broadcasting. One TV 
channel was broadcasting a live debate about schizophrenia. And 
the other one was, well, broadcasting a serial document on 
England----
    Mr. Rohrabacher. Let's just note for the record that----
    Mr. Gursel [continuing]. Dropping the formal----
    Mr. Rohrabacher. Let me just note for the record I did ask 
for some recommendations from the Turkish Embassy. And they 
were very gracious in recommending at least one witness for us 
today. And I appreciate that very much, who they thought would 
be adding to the discussion. And that witness has added to the 
discussion.
    Are there journalists in jail right now? And then I will 
have one more question and then go to my ranking member. Are 
there journalists in jail right now in Turkey? Yes?
    Mr. Gursel. May I again answer this question, please, 
because I am IPI National Committee chairman, and I am a press 
freedom activist also?
    Mr. Rohrabacher. All right.
    Mr. Gursel. There are more than 60 journalists now in jail 
in Turkey.
    Mr. Rohrabacher. Say that again.
    Mr. Gursel. Sixty journalists.
    Mr. Rohrabacher. Sixty?
    Mr. Gursel. More than 60. And they are mostly pro Kurdish 
journalists. They are mostly pro Kurdish journalists. And there 
is a discussion on them. Maybe Mr. Ustun can answer. I don't 
know. But there are, according to OECD and other international 
organizations defending freedom of the press, more than 60 
journalists.
    Mr. Rohrabacher. Dr. Ustun?
    Mr. Ustun. I had this in my testimony as well. We have 
enacted an anti-terror law in Turkey. Because of the terror 
environment, we have a law that makes it difficult to further 
democratization. The judicial system is so archaic. And this 
anti-terror law, basically if you are praising the PKK 
organization, then you could be subject to detention and jail 
time.
    But this was changed very recently. The reform package 
passed in the Parliament, which basically makes the praising of 
the PKK organization not a crime. So, going forward, that is 
going to help. But, as Gursel was saying, there are a lot of 
small-time journalists.
    Mr. Rohrabacher. I am going over my time here.
    Mr. Ustun. Yes.
    Mr. Rohrabacher. Mr. Ambassador, do you have something very 
quickly to answer to that?
    Ambassador Jeffrey. No. As our colleagues have said, it has 
been a tension. There is a great deal of information out there 
in Turkey that is available to the citizens. And there have 
been restrictions. Many of these restrictions date well before 
the AKP, as we have heard. The AKP has eliminated some of them 
and has, particularly recently, raised new questions.
    Mr. Rohrabacher. So we have to put it in an historical 
perspective.
    I will now turn to my ranking member. I am sorry I am over 
but as many questions as long as you want.
    Mr. Keating. Thank you, Mr. Chairman.
    I would just like to ask each of you, each of you 
individually, to comment on this. I want you to cite for me, if 
you could, specific, specific instances of outside influence 
with the demonstrations at Gezi Park. And I will start with 
Ambassador Jeffrey and maybe go right across there. I want to 
see if this collective group here, so knowledgeable on these 
issues, can cite one specific example of that outside influence 
and who they are.
    Ambassador Jeffrey. By my definition of outside influence, 
there was none. By the definition of some----
    Mr. Keating. But yours.
    Ambassador Jeffrey. I will stop there.
    Mr. Fradkin. None, Congressman.
    Mr. Cagaptay. Absolutely none whatsoever.
    Mr. Gursel. I repeat. Absolutely not.
    Mr. Ustun. Yes. The third group I talked about, DHKP-C, 
involved in the attack on the U.S. Embassy, involved in the 
Reyhanli attack, these are connected to the Assad regime in 
Syria.
    Mr. Keating. And they were active participants in the----
    Mr. Ustun. Yes.
    Mr. Keating. Yes, Mr. Gursel?
    Mr. Gursel. Thank you.
    I have to object because every day I have been on the 
place, on the square, in the square, Taksim Square. I observed 
very closely the tension of the political groups existing in 
the resistance. I think the hard core of the resistance is the 
uncoordinated, unorganized middle class new generation of the 
secular modern urban middle class.
    Mr. Keating. Dr. Ustun?
    Mr. Gursel. The second group, you know, are the members of 
some organizations.
    Mr. Keating. Thank you. Thank you.
    Dr. Ustun----
    Mr. Ustun. PKK was there.
    Mr. Keating. Yes. Okay.
    Mr. Ustun. Other socialist groups were there. But 
personally I didn't notice any banner or----
    Mr. Keating. I just wanted to go back for a second----
    Mr. Ustun [continuing]. Anything representing DHKP-C.
    Mr. Keating [continuing]. If I could. Doctor, that group 
you said, they are domestic, aren't they? So when you say they 
are----
    Mr. Gursel. They have historically been supported by the 
Syrian regime, just like the PKK in the past. But their big, 
huge banner was on the Ataturk Cultural Center while CNN was 
broadcasting live. And in the background, you could see DHKP-
C's and Abdullah Ocalan's pictures up there.
    Technically PKK and the government are talking, but PKK is 
still technically an illegal organization in Turkey.
    Mr. Keating. A domestic group?
    Mr. Ustun. Yes.
    Mr. Keating. Okay. That is what I wanted to know. Thank 
you.
    Mr. Ustun. With foreign ties.
    Mr. Keating. Thank you.
    I have another question, just to get a little more sense of 
Gezi Park and what happened there. I would like to ask Mr. 
Gursel just to describe, if he could, who are the protestors 
who were there. Were they diverse ethnic groups? Did they have 
different political backgrounds? Were they mostly men or women? 
Are they violent or harassing toward those who didn't support 
their views?
    We just saw here what we saw on television. I just wanted 
to get a sense from you as someone firsthand. You know, could 
you describe, who are those people?
    Mr. Gursel. Well, at the hard core of the resistance, at 
Gezi Park, those people were the youngsters coming out from 
their homes to protest and to resist what was going on for 
their liberties and for their future, for themselves. And it is 
typically a middle class movement, but others, there were some 
other groups which in the past have used violence as a 
political tool, such as PKK, maybe other groups. But there were 
also many, many groups that were in unease with the government, 
like, for example, feminists, like anarchists, like anti-
capitalists, Muslims, or environmentalists, who opposed 
staunchly the policies of government.
    But in Gezi Park, there weren't any incidents reported. I 
didn't hear anything happened between those groups. There was a 
growing dialogue between them. And it still continues, and even 
the Kemalists. There were Kemalists with the heavy burden of 
the Kemalist Republican past. There also they have engaged 
political dialogue with other groups. And they have also 
accepted the existence of Mr. Erdogan's posters on the square--
--
    Mr. Keating. Thank you.
    Mr. Gursel [continuing]. At the end of the day.
    Mr. Keating. Answer this if you want when I ask the group 
just another question, if I could. There were some reports that 
the Turkish Government response to the protests were not 
completely uniform and some voices within the AK Party were 
encouraging cooperation and calm. And, at least according to 
some preliminary statements, however, once the Prime Minister 
returned from his travels, he used force against those 
protestors. Does this represent like a miscommunication within 
the party, a misreporting, or was there indeed, to your 
knowledge, some difference of opinion as to how to approach 
this within the party itself?
    And do you see these--if there are, indeed, those 
differences, what would be the implications going forward? I 
would throw it open to anyone. Ambassador Jeffrey?
    Ambassador Jeffrey. There certainly was. For example, both 
President Gul and Deputy Prime Minister Arinc at one point came 
out, apologized, and urged restraint on the part of the 
authorities toward the demonstrators and some understanding of 
them. But it goes further than that.
    Even Prime Minister Erdogan when he returned, his original 
position was to take a moderate stance. He invited in and spent 
hours talking to representatives of the demonstrators. He then 
announced that he would adhere to the decision of the court to 
stay the tearing down of Gezi Park and that if in the end, the 
court decided the state could go forward with it, he would not 
do so until there would be a referendum on that.
    This was on Friday, a week ago Friday. And then the next 
day, he had a change in position. And he used force against the 
demonstrators, not only in Taksim Square, which is a major 
vehicle artery, but also in Gezi Park itself.
    So I think that there is a back and forth within the 
government that I find in some perverse way encouraging because 
it shows that people are trying to figure out, how do we deal 
with at least a large minority that disagrees with us on 
fundamental issues. And this is how democracies stumble 
forward.
    Mr. Keating. Anyone else? Dr. Ustun?
    Mr. Ustun. The first couple of days, there was definitely a 
management, crisis management, issue. But, Ambassador, what he 
is mentioning is correct. What happened on Sunday, however, 
when the police left the square, Taksim Square, and moved out 
of that area, moved to Dolma Bagche, where the Prime Minister's 
office is there. These organized illegal groups tried to storm 
this office as well as they tried to do it simultaneously in 
Ankara. Once that was done, the Prime Minister decided these 
people are not there for the park, but they are organizing sort 
of uprising or what--they're trying to inflame the situation 
and hijack the protests. So that's why you saw a hard-line 
attitude afterwards.
    And there was a lot of disinformation, incredible amount of 
disinformation about people being hurt, getting killed. 
According to one journalist's Twitter account, you could count 
20 people dead in the first day. So there was a lot of 
inflammatory information flow. And the main news channels 
reported it around the clock, but they did not do live 
broadcasts from the area.
    But by the second day, things were out of control. And then 
later on, the things really grew. People reacted to this. And 
there are all these different diverse groups that Gursel was 
talking about.
    Mr. Keating. Yes. My time is over, too. So if one of the 
remaining panelists could just answer that same question, that 
would be----
    Mr. Fradkin. I certainly agree with Ambassador Jeffrey that 
there was this kind of tension and disagreement. The difficulty 
it seems to me now is that since Prime Minister Erdogan came 
back, changed his position, since that time, he has done 
everything he can to reassert his view of things in this very 
large number of speeches he is giving and to insist on a very 
perverse interpretation of the events which took place.
    One example that struck me, during the events in Taksim, 
people naturally sought help for their injuries or for having 
been gassed. A group went into a mosque solely for the purpose 
of finding a secure place to be treated.
    Prime Minister Erdogan has described this as essentially an 
assault on the mosque. He claims that people ran in there with 
beers to desecrate the mosque. He claims that they bothered 
female worshippers, that they walked in there with shoes. The 
imam of the mosque has declared this to be absolutely false 
publicly. But Prime Minister Erdogan returns to this over and 
over again in his speeches about in a way----
    Mr. Keating. If I could interrupt? The purpose of the 
hearing is not to litigate those individual issues but----
    Mr. Fradkin. No, no. I meant----
    Mr. Keating. I wanted to thank all of you. I am just way 
over my time.
    Mr. Fradkin. Okay.
    Mr. Keating. But I did get the sense of all of you. And I 
do think this kind of discussion is helpful. It has been 
helpful to the U.S. in their history to look back at themselves 
and have an open discourse about these things.
    And you are such an important ally, Turkey is, that, you 
know, I hope that kind of introspective view, painful as it can 
be at times, is helpful.
    And I yield back.
    Mr. Rohrabacher. Mr. Lowenthal, I believe, is next.
    Mr. Lowenthal. Well, thank you for educating us. I am 
wondering, you know, a little bit more about the balance that 
is going on in Turkey between secularism and more Islamic 
beliefs and what that dynamic is like and especially within the 
AKP Party itself.
    Can you explain to us just where--for our interpretation, 
it seems to have been drifted more away from a secular. And, 
yet, I would like to understand, what is going on within the 
AKP Party itself. Are they experiencing this? And are there 
forces to pull it in both directions within the party itself? 
Yes?
    Mr. Cagaptay. Thank you, Congressman Lowenthal. I think it 
is a great question. It allows us to delve into the current 
polarization of Turkish society along this----
    Mr. Lowenthal. Yes.
    Mr. Cagaptay [continuing]. Dividing line. Let me take the 
government's alcohol policy, on which there was a question 
earlier from the chairman as well. Turkey is a Muslim-majority 
country. And consumption of alcohol is considered a sin by some 
Muslims. So the regulation of consumption and sale of alcohol, 
therefore, blurs the lines between government and religion in a 
Muslim-majority country. It is not just a health care or social 
policy issue. It is an issue about the separation of religion 
and government.
    Therefore, the limitation of sale of alcohol, denial of 
alcohol licenses to stores and businesses I think represents a 
blurring of that line. I think for many Turks who would not 
consider the consumption of alcohol as a sin or do not care 
that it is a sin, this is a government legislating what should 
be considered a sin by some into what should be a crime.
    And I think that is a dividing line that has been, 
unfortunately, activated in the last few years because of some 
of the legislation passed by the government.
    Mr. Lowenthal. Others? This is for all the panel.
    Mr. Ustun. The party is a conservative democratic party. So 
it pursues a conservative agenda. There is no doubt about that.
    If secularism moved away from something, it moved away from 
the French style toward more U.S. style, where you tolerate all 
sorts of religions and religious beliefs. The party is a very 
diverse party. It received 50 percent of the votes of 
countries. So this is a very diverse country. There is a 
discussion within the party. There is no doubt about that.
    When it comes to alcohol regulations, though, the 
restrictions are based on World Health Organization 
suggestions. They didn't come up with them themselves. And they 
are actually less restrictive than those implied in this 
country, in the United States.
    And it basically regulates the--you used to be able to send 
your teenage son to buy alcohol for yourself. And they would 
sell alcohol in the night hours. So there are regulations 
adopted on those issues, but they didn't come up with those 
regulations themselves. They are based on E.U. and World Health 
Organization guidelines.
    Mr. Lowenthal. Mr. Gursel?
    Mr. Gursel. Thank you.
    Well, according to OECD figures, in Turkey, the pure 
alcohol consumption per person, per adult person, per year is 
only 1.5 liters. And Turkey is the least alcohol-consuming 
country in the OECD while the average is 10.5. And these 
measures are really overstretching measures. And then it colors 
the perception of advancing of an Islamic agenda by an 
important person of the public.
    And then also the Prime Minister defended the so-called 
alcohol regulation by Islamic references also one time. And 
then according to the transformation of the political Islam, 
well, I adopted--this party is neo-Islamist, but now to be a 
neoist, in my opinion, you should preserve the secular system 
while being against the secularization of the society. But now 
the system is becoming more or less under the heavy pressure of 
an Islamic or Islamist agenda coming under the pressure for 
about 1 year or more under the heavy-handed approaches of Mr. 
Erdogan.
    Mr. Lowenthal. Dr. Fradkin?
    Mr. Fradkin. I think some of these things appear from 
outside as relatively small impositions or restrictions, as was 
talked about earlier. And, in fact, they are, partly for the 
reason that was just mentioned. Very few Turks are drinkers.
    But there seems to be a desire on the part of the 
government and the party to make a particular point of this and 
express itself in other points as well; for example, lately a 
campaign directed against couples kissing in public.
    So the sense is that there is kind of a censoriousness 
about some of the regulations and some of the rhetoric that 
associates with them.
    And the other part of it is a large building program that 
has been undertaken by the government, especially to build more 
and more mosques and especially a giant mosque, which will be 
on the Asian side of the Bosphorus.
    Mr. Lowenthal. Ambassador?
    Ambassador Jeffrey. It is a very, very good question, Mr. 
Congressman. It is also one that gets us all on thin ice. And, 
as you can see, we have gotten different views here, all of 
which I agree with, even though in some respects, they are 
contradictory because the subject is contradictory. I will try, 
without getting into, I hope, trouble, to explain this very 
quickly but in a little bit of context.
    The United States view of secularism is a very interesting 
one because we are, by and large, a religious country that has 
very strong barriers, usually not crossed, about keeping 
religion out of the political system for a variety of reasons, 
including the many different kinds of religions we have.
    In Turkey, there is a from both sides--the secular side 
took a very--it was mentioned earlier, but it is an important 
point. The French form of laicite, or secularism, which is 
quite aggressive, in France against the Catholic Church 200 
years ago with the revolution--and some of these ideas have 
passed won. In Turkey, this is manifest by the head scarf ban 
that was in effect for many years. And we are seeing a sort of 
mirror image of this with some of the actions by the current 
government.
    In both cases, what is seemingly missing is respect for the 
private sphere of people, be they religious or be they non-
religious, be they followers of religious precepts or be they 
not too concerned about them.
    There has been a consistent trend, regardless of the 
government, over a long period of time to challenge the right 
of people to do this. We see this now. We saw it 20 years ago.
    Mr. Lowenthal. Thank you. I yield back my time.
    Mr. Rohrabacher. Thank you very much. And we now turn to 
Mr. Meeks.
    Mr. Meeks. Mr. Chairman, thank you and to Ranking Member 
Keating. Let me first say that I actually come to this hearing 
today with democracy very heavy on my mind. I talk about the 
democracy here in the United States. I will admit outright that 
it is from this prism of democracy that I know best and its 
evolution and that I approach the question of this hearing 
post, is Turkey at a crossroads, what do recent protests mean 
for democracy in the region, the democracy, our democracy, here 
in the United States after more than 200 years is still working 
toward perfection.
    Yesterday the United States Supreme Court issued a ruling 
that gutted one of our Nation's landmark civil rights: The 
Voting Rights Act. That ruling was devastating to communities 
in this country who have been fighting attempts to suppress 
their right to vote.
    Discouraging pain of the past and present de jure and de 
facto racism came rushing at those of us who lived through it 
and fight for it now. Sadly, that is and was the America that I 
have known. On the other hand, today the Supreme Court issued 
rulings that bring our Nation significantly closer to our 
aspirations of equality and our society. The point is we are 
indeed still an evolving country.
    This hearing about Turkey, the legacy of our evolution is 
instructive here, I believe. Contrary to what some have 
suggested, I believe that the protests in Turkey are a sign of 
the strengthening of the democratic engagement of civil 
society. Protestors have power. And they are demonstrating that 
they know how to use it.
    It is my hope for Turkey, as it is for America, that we are 
judged by our positive steps toward a better society, rather 
than the mistakes we have made along the way, for, surely, the 
United States has made mistakes also.
    I don't want to be judged as a country by those mistakes. I 
want to be judged by the positiveness. It is also my hope that 
my colleagues encourage the Government of Turkey to embrace 
positive deepening of its democracy, as were most evident in 
the early steps of the current governing party. Those early 
steps should not be overlooked, nor forgotten by this committee 
or members of the United States Congress, a balancing of power 
of the military and major economic reforms toward advancing to 
E.U. accession talks, in my estimation, with no small fear.
    The future of the E.U. accession talks have already been 
affected by the ongoing protests. But I believe both Turkey and 
the E.U. would lose if the accession talks remained blocked.
    So I have great hopes for the future of Turkey. With that, 
I want to just focus on that for a second and ask questions, I 
guess, to Dr. Ustun and to both Mr. Gursel and I will hear from 
the Ambassadors also. And I don't mind if everybody peeks in. 
The success of the U.S. administration's--and many Members of 
Congress have long supported Turkey's accession to the E.U. And 
at times, however, the United States pressure on E.U. actors 
regarding Turkey's membership prospects have generated tension.
    How important is Turkey's potential accession and 
continuing the accession process amid current difficulties in 
Turkey and E.U. relationships? And what, if anything, can and 
should the United States do to continue to promote Turkey's 
E.U. accession?
    Mr. Ustun. I think Turkey is very grateful to the U.S. for 
the support it gives on E.U. membership. And it has proceeded 
strongly. And many reforms passed in Turkey, thanks to your 
E.U. support and funds and everything like that.
    But E.U.'s internal problems and internal questioning of 
whether Islam is sort of--Turkey as an Islamic country could 
actually be in the E.U., has raised questions. That question is 
now much bigger for the E.U. And E.U.'s internal economic 
problems now created sort of several E.U.'s, if you will. So 
those kinds of problems are preventing progress on that front, 
but Turkey still considers it as a strategic goal. The 
President mentioned that, the Prime Minister, and all of that.
    Yesterday's news about the opening of the regional policy 
chapter was very good news on that front. And Germany has 
criticized the handling of these protests. But I think we will 
move forward there. So I am more hopeful that there have been 
serious problems because the E.U. stalled Turkey on those 
accounts.
    Mr. Meeks. Let's just go across. And then I will be done.
    Mr. Gursel. The recent events, incidents in Istanbul and 
all over Turkey proved again that the E.U., that for Turkey, 
there is no alternative to E.U. perspective. The E.U. 
perspective is still the anchor for a sustainable democracy to 
establish the creative sustainable democracy for Turkey, even 
though there was no E.U. flag during the protest, et cetera.
    But that doesn't change the reality. The stalemate must be 
overcome. And to overcome the stalemate, maybe the U.S. can 
play a facilitating role beginning from the Cyprus question, 
which blocks our way, our E.U. perspective. And the pressure 
over the government from the society and from other actors to 
pursue. And to stick with the E.U. perspective is very 
important at the moment.
    Mr. Cagaptay. Thank you, Congressman Meeks. I also think 
that Turkey's E.U. accession is of incredible value to Turks 
and also to the United States. And I think U.S. support for 
Turkey's accession has made that process possible. If not for 
that, Turkey would not be where it is today.
    I don't think Turkey's need for the E.U. is any more on the 
economic front. The country has grown in leaps and bounds in 
the last decade. And Europe has not. And the Turks don't any 
more feel that Europe is the gauge of prosperity. But Europe is 
the gate to liberal democracy and I think for the following 
reason: Turkey has, roughly speaking, two disparate halves.
    As Ambassador Jeffrey stated, the country's model of 
secularism has switched from one to the other. Turkey used to 
subscribe to the European model of secularism, which basically 
meant freedom from religion in government and education. Now 
they move to the American model, which is freedom of religion 
in government and education.
    For many countries, I think one or other model works. For 
Turkey, you need both. This country has people of different 
religious persuasions and convictions and practices, although 
it is mostly Muslim. At the same time, I think Turkey needs, 
for instance, a constitution. That would provide freedom of 
religion and freedom from religion so that secular, 
conservative, liberal Turks would all feel welcome in this new 
country. And the only way it can get there is through the 
anchor of the European Union, which would be the soft power 
force to push for political liberalization so that the 
country's two disparate halves could feel that they could live 
together. And the road to that goes through a new constitution. 
And the path of that goes through the country's prized goal of 
European Union accession. So I think E.U. is the anchor of 
political liberalization in Turkey.
    Mr. Fradkin. Like my colleagues, I think that it would be a 
very good idea. It was a good idea in the past. And it would be 
a good idea at present. And if the United States can move that 
forward, that would be all to the good. But it seems extremely 
unlikely under the present circumstances.
    On the one hand, what happened in Turkey has given those 
opponents of accession in the E.U. an excuse for denying, 
stopping the process, which has now stopped until October. And, 
on the other hand, it has created for premise for everyone 
Europe a kind of a punching bag, which he has been using 
regularly in order to appeal to his supporters.
    So neither side looks like they want to actually get 
together at the moment. And it is hard to see how they would be 
brought, that would be brought forward under the present 
circumstances. Maybe if things calm down or the other 
possibility is it seems to me what was mentioned earlier, that 
the eruption of Gezi Park is the eruption to which you 
referred, the eruption of civil society.
    And if that civil society becomes stronger and if, as 
appears to be the case, it really does yearn for the kinds of 
political forums that are characteristic of the E.U., then it 
is more likely that it would go forward. But then it would have 
a clear base within Turkish politics and perhaps overcome 
European objections.
    Ambassador Jeffrey. First, the E.U. accession process 
itself and eventually entry is a very good thing for Turkey. 
Secondly, as someone who has lived even longer in Europe than 
in Turkey, it is a good thing for European. Turkey 
geographically, at least part of the country, by the ethnic 
composition of much of its population, by its history, is part 
of the European realm. It is economically now a powerhouse that 
would help the European Union in many respects. So what is the 
problem?
    And certainly it isn't that Turkey is all that different. 
It has a very strong orientation toward Europe. There are 
millions of Turks in Germany and so forth. I think this is a 
very important process. The American Government supports it. We 
get in trouble all the time with the Europeans by making these 
recommendations.
    I think we earned the right from 1941 to 1989 and beyond to 
give advice to our friends and allies. They can not listen to 
us if they want.
    Mr. Meeks. Thank you, Mr. Chair. I yield back.
    Mr. Rohrabacher. And we ask unanimous consent Mr. Connolly 
be given the rights as a ex-officio member of the committee to 
proceed with his 5 minutes of questions. Hearing no objection, 
so ordered. Mr. Connolly, you may proceed.
    Mr. Connolly. Thank goodness Mr. Meeks couldn't hear that 
last part there about objections. Thank you, Mr. Chairman.
    And I wanted to be here today as the co-chairman of the 
Congressional Caucus of Turkey. And I really thank you and the 
ranking member for your graciousness in allowing me to 
participate.
    First of all, Ambassador Jeffrey, I hear a fellow New 
Englander. Where are you from?
    Ambassador Jeffrey. Saugus, Mass.
    Mr. Connolly. Saugus? Okay.
    Ambassador Jeffrey. Just north of Boston.
    Mr. Connolly. I can talk that way, too, if I have to. 
[Laughter.]
    But I don't normally.
    To make a point, I think, to follow up on some of the 
points you were making, Mr. Ambassador, if one looked at the 
United States from 1965 through, say, 1968, very turbulent 
period in this country, there were riots in most major urban 
areas of America during that time period, were there not? You 
may want to verbally acknowledge, Mr. Ambassador.
    Ambassador Jeffrey. There were.
    Mr. Connolly. And in 1968, was there not a major 
conflagration in the City of Chicago during the pendency of a 
major party convention to try to determine the next President 
of the United States to have a state that subsequently was 
referred to by a formal commission as a police riot? Is that 
not true?
    Ambassador Jeffrey. That is true.
    Mr. Connolly. Could one construe fairly that with those 
turbulent years and those very difficult and in some cases 
terrible events, that somehow that proved that America was not 
up to its democratic ideals or, indeed, its democratic 
institutions were false?
    Ambassador Jeffrey. As one who was very involved in that 
period, I would say it proved that, a) there were great 
fissures in American society at that time and that we worked 
through them in different ways that proceeded on through the 
'70s and that we emerged from it a stronger democracy.
    Mr. Connolly. I think you have just put your finger right 
on it. I think that is the question, not that there are 
difficulties in a country, not that there are in some cases 
sometimes violent demonstrations in a democracy, though they 
are to be avoided if we can.
    But what does the country do with that dissent? Does it 
make it stronger or does it, in fact, force it or encourage it 
to fall back on autocratic processes that hinder 
democratization? It seems to me that is the existential moment 
for Turkey right now. I wonder if you could enlighten us 
because I have heard sort of contrary messages coming from the 
Turkish Government.
    Initially, Prime Minister Erdogan reacted pretty harshly to 
the very fact that there were any demonstrations and called 
demonstrators names. But then other members of his government, 
the President himself, and I think you pointed out or somebody 
pointed out a Deputy Minister--actually, there were noises 
about apologies for the overreaction of police and a statement 
of respect for the sincerity of the demonstrators.
    There was hope after those statements that Prime Minister 
Erdogan returned to Ankara, that his words might echo some of 
that conciliatory rhetoric. They seem not to. I wonder, 
Ambassador Jeffrey, if you could help us a little bit sort of 
divine what are we to conclude from these mixed messages coming 
from officials of the Turkish Government with respect to the 
import of these demonstrations.
    Ambassador Jeffrey. I would yield to some of the people 
here who know the country better than I, but I would say that 
we have another example. Just yesterday not only did President 
Obama speak with the Prime Minister, but the U.S. statement 
issued after it, the Prime Minister also described a situation 
in Turkey. The two leaders discussed the importance of 
nonviolence and of the rights to free expression of assembly 
and of free press. Such statements usually, to one or another 
degree, jointly not only do they reflect the truth, but they 
usually reflect a certain understanding, at least, if not 
agreement, before it goes out. So I would take this as another 
step, moving back.
    Again, we get to your first question, sir, which is this is 
a very tumultuous movement, I think forward. I could be wrong, 
but I would like to ask the others.
    Mr. Connolly. Certainly. Do other members of the panel wish 
to comment?
    Mr. Fradkin. Yes.
    Mr. Connolly. Yes, Dr. Fradkin and Dr. Cagaptay?
    Mr. Fradkin. I think that, you know, it is very useful to 
draw the analogy that you did or the comparison anyway. And it 
certainly could be the case that the kinds of results or 
progress in democratic life will result from this explosion. 
The obstacles to it, it seems to me, are a couple. One was 
referred to earlier by some of my colleagues, I think, in 
particular, Mr. Gursel, that we had the benefit in the '60s, 
which I remember extremely well, of certain institutions and 
also the rotation of the parties, which permitted people to 
sort of say how they wanted to go in the future and also to 
restrain the passions that are characteristic of democratic 
life. The question is whether Turkey has the conditions for the 
restraint of those passions or a means for expressing them in 
its political life. I am not saying it doesn't, but this is 
certainly new. And it is not clear that it does.
    Mr. Cagaptay. Thank you, Congressman Connolly. I agree with 
my friend and colleague Ambassador Jeffrey that this is Turkey 
moving forward for the following reasons. It has become in the 
last decade, largely thanks to sound economic policies 
implemented by the AKP Government a majority middle class 
society for the first time in history.
    By the end of this decade, about 80 percent of Turks will 
be classified as middle class. What is more important, Turkey 
is about to attain universal literacy. And this will be first 
ever for a large Muslim-majority country in human history.
    These two developments are irreversible. They represent a 
society that has become too mature, too middle class, too 
literate, too connected to the world to fit into a one-size-
fits-all straitjacket conservatism. That is why I think you are 
seeing an outburst of anger on the streets, as some of my 
panelists have indicated, but I think what you are seeing is 
beyond that anger.
    What was interesting, in Istanbul the last month is that, 
first, you had a pretty significant pro-environmental movement 
that tried to save a park from being converted into a shopping 
mall. People care for the trees. That would not have been the 
case in Turkey 10 years ago. That is a product of a decade of 
growth and prosperity and middle class values: Respect for the 
environment. That has been born out of the AKP success.
    What is more important is that when the police cracked down 
on the pro-environment sit-in, in the middle of the night, at 2 
o'clock a.m. in the morning, hundreds of thousands of people 
came onto the streets to defend the rights of those other 
people to protest. I think that is a sign of maturity. It 
indicates that people are saying, ``I may not agree with what 
they are doing, but they have the right to assembly and free 
speech.''
    And I think that represents a way forward for the country 
because the country is arriving at a point of a large middle 
class which demands respect for individual freedoms, including 
freedom of assembly, association, media expression, and respect 
for individual space, as well as the environment.
    Mr. Connolly. Before we proceed--my time is up. And it is 
entirely up to the chairman whether he wishes to allow 
additional comments. I thank the chair.
    Mr. Gursel. Well, I think in Turkey, where there are no 
real checks and balances, no effective or efficient opposition, 
no free press, at the end of the day, I can say this social 
explosion shakes the dynamics or the statistics of the 
government, political status of the government, and shows the 
government their limits. And then it must be understood.
    The limits for Mr. Erdogan's power has been drawn in Taksim 
on the 1st of June. And then these people, now they are 
continuing to their social movement without the support of the 
extremist groups in parks, at their homes, and in many parts of 
the social life. They are stripped from them.
    And then these people, the middle class, the urban, secular 
middle class, as Mr. Cagaptay has said, they are connected to 
the words. And at this age, where there is this highly 
educated, the new middle class term of--I mean, I use the term 
to remark that they are the wage earners. And they are very 
skilled people. I mean, they are the potential owners of the 
E.U. project of Turkey if the project is offered to them in a 
convincing way because the project now, actually, is in the 
deep freeze.
    And then this is--and at this age, to finalize, social 
engineering is impossible. This is one last message that this 
government or Mr. Erdogan himself has to get from the social 
explosion.
    Mr. Rohrabacher. And, to top it off, Dr. Ustun?
    Mr. Ustun. Mr. Chairman, your earlier question, did you 
expect it, and I said, ``Yes, with some objections.'' The 
reason was that there is a context to all of this. AK Party has 
had all of these successes at the ballot box. And now it is 
trying to tackle the sort of burning issues, such as the 
Kurdish question and new civilian constitution. These have also 
created discontent. There are people who are not happy about 
the Kurdish settlement process, and they are not sure what is 
happening and et cetera.
    But the tension was there. So we could tell that this 
tension had to come out somehow. And, also, there is discontent 
about the serial policy.
    But the reason the language changed over time and you hear 
mixed messages is that evolution of the protests. Don't forget 
the Prime Minister met with the protestors in two different 
meetings. And he said that ``I understand your concerns.''
    And the government issued an apology as well. But he was 
directing his comments about groups who want to occupy the 
park, not just protest, but occupy and then continuously 
protest whenever they wanted. So there he had to draw the line 
and say, ``There is the rule of law. And you have to abide by 
the rules.''
    Thank you.
    Mr. Rohrabacher. Thank you very much.
    I think we have had some very thought-provoking testimony 
today. Just a few thoughts in closing. There were some 
expressions of optimism that I noted, even from the beginning, 
where we talked about the development of a middle class in 
Turkey that--perhaps these demonstrations reflect the 
development of a middle class who--you know, I ain't going to 
take it anymore or something that could lead, as we talked 
about, to an actual greater demand of the population for 
democratic principles and respect for their rights. And we 
heard that expression from Mr. Meeks as well. And so Mr. Meeks 
was sort of mirroring that testimony about a strong middle 
class.
    We would hope that Turkey uses this episode of turmoil as a 
vehicle to move closer, rather than further away from 
democratic government. And because, as Mr. Connolly pointed 
out, we have had instances like this in the United States. And 
some of the turmoil that we have gone through has helped us 
make decisions that needed to be made. And we needed to change 
direction. And so turmoil is either going to be assigned as a 
growing pain, which is an indication of past progress, or it 
could be seen also that past progress is in jeopardy. So we 
will be watching this very closely.
    And one last thought is that years ago, when I was a young 
man, I found myself in Istanbul. And I was staying in a 50-
cent-a-night hotel, I might add. And it was quite an 
experience. And I decided that I wanted to swim between Europe 
and Asia. And, in fact, the real truth of the matter was I 
decided I was going to do that because I knew it would impress 
women and I needed all the leverage I could get.
    What happens is I went down. I found a spot that looked 
like it was the closest between the areas there between Europe 
and Asia and the Bosphorus there. And I started to sort of get 
my--I had my swimming suit underneath my pants there. And I 
started getting ready to jump in. And I was 20 years old then. 
And a young fellow about 5, 6 years older than me, a Turkish 
young man, came up to me and said, ``What are you doing?''
    I said, ``Well, I am going to swim between Europe and 
Asia.''
    And he said, ``Are you out of your mind?''
    And I said, ``No.''
    He says, ``You know, this is very treacherous water here. 
You know,'' he says, ``I'll tell you what. My friend and I will 
row beside you in our little boat.'' They had a little rowboat 
there. Thank God, they did. I tell you, I would have panicked 
three-fourths of the way because it is really cold. And the 
water is very treacherous there. There are whirlpools and 
things. And knowing that they were rowing beside me gave me the 
confidence to keep going. And I actually made the journey 
between Europe and Asia.
    And I will just say this, that we should remember that 
during the Cold War and during that experience that I had with 
myself right there, it couldn't have been better a situation 
than to have a strong Turkish person as my friend right next to 
me. And that is the way we should look in the future as well. 
We need to have the Turkish people beside us as friends. And 
friends give advice to one another.
    And our advice now is to try to reconcile any differences 
that you have that have been brought up by this turmoil and use 
the turmoil that we have experienced in Turkey as a means to 
make things better, rather than as a means to attack one's 
enemies. And if we do that, Turkey will end up a stronger 
country for it. And the United States will be better off as 
well because we will have Turks right next to us rowing the 
boat to make sure that we are safe. So thank you all very much.
    This hearing is adjourned.
    [Whereupon, at 4:02 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
